No.
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________
RICHARD JANUSZ,
Petitioner,
v.
ILLINOIS
Respondent.
______________________________________
Petition for a Writ of Certiorari to the
Illinois Appellate Court, Second District
______________________________________
PETITION FOR WRIT OF CERTIORARI
____________________________________
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for Richard Janusz
* Counsel of Record

ii

QUESTION PRESENTED FOR REVIEW
1. Whether a defendant is denied due
process of the fourteenth amendment
to United States Constitution where
his arraignment is delayed, for no
apparent reason for 630 days after
his arrest?

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………..…..…...ii
TABLE OF CONTENTS…………….……..…...iii
TABLE OF AUTHORITIES………………….….v
OPINIONS BELOW……………..…..……….…...1
JURISDICTION…………………..…………........1
CONSTITUTIONAL
PROVISION INVOLVED…...……………………1
STATEMENT OF THE CASE…………….......3

iv

REASONS FOR GRANTING THE
PETITION…………………………………..………8
I:
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE A DFEENDANT
IS DENIED DUE PROCESS WHERE A COURT
ARBITRARILY DELAYS HIS ARRAIGNMENT
UNTIL 630 DAYS UNDER HIS ARREST
………………………………………………………..8
CONCLUSION……………………………………14
TABLE OF CONTENTS OF APPENDIX…...A-1
APPENDIX A (Order of the Illinois Supreme
Court Denying Petition for Leave to
Appeal)……………………………………………A-2
APPENDIX B (Order of the Illinois Appellate
Court for the Second District)…………..……A-3
APPENDIX C (Decision of Circuit Court). A-20

v

TABLE OF AUTHORITIES
CASES
U.S. Supreme Court Cases

Page

Apprendi v. New Jersey, 530 U.S. 466
(2000)……………………………………….…….11

Brewer v. Williams, 430 U.S. 387
(1977)……………………………………………..12

Crain v. United States, 162 U.S. 625

(1896 )………………………………………passim

Crawford v. Washington, 541 U.S. 36
(2004)…………………………………………......11

Garland v. Washington, 232 U.S. 642

(1914)……………………………………….passim

Hamilton v. Alabama, 368 U.S. 52 (1961)….12
Kirby v. Illinois, 406 U.S. 682 (1972)………..12
Powell v. Alabama, 287 U.S. 45 (1932)……...12

vi

CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. amend. XIV…………………passim

OPINIONS BELOW
The order of the Illinois Supreme Court,
denying the petition for leave to appeal is
unpublished. It is attached as Appendix A.
The order of the Illinois Appellate Court for the
Second District is cited as People v. Janusz, 2020
IL App (2d) 190017443 and is attached as
Appendix B.
JURISDICTION
The Illinois Supreme Court denied the
Kinzys’ petition for leave to appeal on January
29, 2021. This court has jurisdiction under 28
U.S.C. Sec. 1257.
.
CONSTITUTIONAL PROVISIONS
INVOLVED
United States Constitution, amend. XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,

2

are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.

3

STATEMENT OF THE CASE
Richard Janusz was accused, and
convicted, in Illinois state court of multiple
counts of predatory criminal sexual assault and
child pornography. (R. C Vol. III, 500-14). He
was not arraigned on these charges until 630
days after his arrest, and his motion to dismiss
the charges based upon this delay was denied by
the Illinois courts. The facts relevant to this
issue are as follows.
Richard Janusz was arrested on August 1,
2014 and appeared in court on the same date. (R.
2-3). On that date, the court informed Janusz of
the charges and possible penalties, but did not
ask him to plead. (R. 2-6). The trial judge found
probable cause for all charges (R. 6), set a
demand bond of 5 million dollars (R. 7-8), and
appointed the public defender to represent Mr.
Janusz. (R. 8). The public defender requested
August 20, 2014 as a subsequent court date. (R.
8-9). Richard Janusz was not arraigned, and no
date was set for arraignment. (R. 2-13, C.L.R.
31).
On August 19, 2014, Richard Janusz,
through counsel filed a demand for a speedy trial
under 725 ILCS Section 5/103-5(b), and a
continuing demand for speedy trial under 725
ILCS 5/103-5(a). (C.L.R. 38). On August 20,

4

2014, however, the public defender asked for a
further status date and the case was continued
to September 29, 2014. (R. 12-13). On that next
date, the court suggested a further date of
October 1, 2014 and the public defender
indicated: “That will be fine.” (R. 17-18). On
November 4, 2014, retained counsel, Peter
Gruber, substituted for the public defender. (R.
29-30, C.L.R. 83).
After a number of court dates, on October
15, 2015, the following colloquy occurred:
“THE COURT: I’m not sure if we’ve
had an arraignment on the case.
[THE
PROSECUTOR]:
The
indictment was tendered in 2014, so
I hope so.
THE COURT: There’s been no
arraignment. We’ll mark this for
arraignment on the next scheduled
court date, please. Thank you.”
“November 12th.”
(R. 65). The court’s order on that date indicated
that the arraignment was to take place on
November 12, 2015.
However, on November 3, 2015, another
court date was held, but there is no indication
that any arraignment took place, and the case

5

was continued to December 3, 2015, for status
review. (C.L.R. 100). No court was held on
November 12, 2015. On December 3, 2015, a
further status was held, but there was no
arraignment. (R. 67-69).
On March 3, 2016, the following colloquy
occurred:
“THE COURT: That's fine. I'm just
looking to see if there was an
arraignment on this case for
Mr. Janusz. I knew there was an
indictment at one time.
MR. WEICHEL: I have a note that
says he was arraigned, Judge, but I
don't know when that was.
THE COURT: He was or wasn't?
MR. WEICHEL: Was.
THE COURT: All right.
MR. WEICHEL: But I couldn't tell
you when that was.
THE COURT: Can you tell me the
date of arraignment on this, please? I
know it was set for
arraignment. I'm not seeing it.
MR. WEICHEL: I show he was
indicted back in October of last year.
THE COURT: I know. It shows
several dates but I'm showing on

6

those dates there's no notation on the
order so I'm looking to see. He's not
been arraigned, so on the next
scheduled court date he needs to be
brought over for arraignment as well.
MR. WEICHEL: I'll mark that on the
order.
THE COURT: April 21st you said?
MR. GRUBER: Yes, please.
THE COURT: The 21st of April.
Thank you.”
(R. 76-77).
Finally, On April 21, 2016, 630 days after his
arrest, Richard Janusz, was arraigned. (R. 8087). He waived formal reading of the charges and
entered a plea of not guilty. (R. 87).
Counsel filed a motion to dismiss on speedy
trial grounds on October 12, 2017 (C.L.R. 261),
an amended motion to dismiss on October 18,
2017 (C.L.R. 271), a second amended motion to
dismiss on November 16, 2017 (C.L.R. 288), and
a supporting Memorandum of Law on January
12, 2018. (C.L.R. 298). The prosecution filed a
response to the motion on January 23, 2018.
(C.L.R. 309). On January 31, 2018, Richard
Janusz filed a third amended motion to dismiss
on speedy trial grounds. (C.L.R. 329).

7

After argument, the trial court rejected
Richard Janusz’s contention
that the
unexplained 630 day delay before he was
arraigned was a breach of his speedy trial rights
and denied the motion. (R. 455).
On appeal, Richard Janusz claimed that
the 630 day delay violated both his statutory
speedy trial rights and his right to due process
under the fourteenth amendment to the United
States constitution. The court rejected the
statutory speedy trial argument and ignored the
due process claim. The due process claim was
raised in a timely petition for leave to appeal to
the Illinois Supreme Court. That court denied
the petition for leave to appeal.

8

REASONS FOR GRANTING THE
PETITION
I.
THIS COURT SHOULD GRANT THE
PETITION FOR WRIT OF CERTIORARI TO
DETERMINE WHETHER AN UNEXPLAINED
630 DELAY IN ARRAIGNMENT FROM THE
DATE
OF
ARREST
VIOLATES
THE
FOURTEENTH AMENDMENT GUARANTEE
OF DUE PROCESS.
This court should grant the petition for
writ of certiorari to determine whether the due
process of the fourteenth amendment permits
a delay of 630 days after arrest before a
defendant is arraigned. This issue is a case of
first impression before this court and involves a
significant issue upon which there is no clear
consensus among the lower courts.
In Crain v. United States, 162 U.S. 625,
643 (1896 ) this Court held that “at least in cases
of felony” that a plea to an indictment,
presumably at an arraignment is “necessary
before the trial can be properly commenced, and
that unless this fact appears affirmatively from

9

the record the judgment cannot be sustained.
Until the accused pleads to the indictment and
thereby indicates the issue submitted by him for
trial, there is nothing for the jury to try.”
However, eighteen years later, in Garland
v. Washington, 232 U.S. 642, 646-47 (1914), this
Court overruled Crain, holding that the lack of
an arraignment and a formal plea was a mere
“technical objection” which had been rendered
unimportant by later developments in the law:
“Technical objections of this
character were undoubtedly given
much more weight formerly than
they are now. Such rulings originated
in that period of English history
when the accused was entitled to few
rights in the presentation of his
defense, when he could not be
represented by counsel, nor heard
upon his own oath, and when the
punishment of offenses, even of a
trivial character, was of a severe and
often of a shocking nature. Under
that system the courts were disposed
to require that the technical forms
and methods of procedure should be
fully complied with. But with
improved methods of procedure and

10

greater privileges to the accused, any
reason for such strict adherence to
the mere formalities of trial would
seem to have passed away.”
232 U.S. at 646.
This Court went on to say that:
“Holding
this
view,
notwithstanding our reluctance to
overrule former decisions of this
court, we now are constrained to hold
that the technical enforcement of
formal rights in criminal procedure
sustained in the Crain Case is no
longer required in the prosecution of
offenses under present systems of
law, and so far as that case is not in
accord with the views herein
expressed it is necessarily overruled.”

Garland, 232 U.S. at 646-47.
This Court should, however, grant the
petition for writ of certiorari to consider whether
Garland should be overruled and Crain
reinstated.
Where
constitutional
procedural

11

guarantees are involved, this Court has
increasingly come to the view that the meaning
of these provisions is to be determined by
considering the original intent of the Framers of
the Constitution and the enactors of the
Fourteenth Amendment, however “technical”
and not by considerations of efficiency or judgemade policy. See Crawford v. Washington, 541
U.S. 36, 61 (2004)(Confrontation clause of the
Sixth Amendment bars the admission of
testimonial hearsay, regardless of modern
notions of “reliability”); Apprendi v. New Jersey,
530 U.S. 466, 478 (2000)(intent of Framers
compelled conclusion that all elements of felony
offense, including elements labeled as
“sentencing factors” must be submitted to a
jury).
As this Court delineated when it surveyed
the case law in Crain, and as this Court
acknowledged in Garland, the overwhelming
legal consensus prior to Garland was that an
arraignment and a plea were necessary elements
to a prior conviction, and their absence was not
a mere technicality.
Therefore, this Court should grant the
petition for certiorari and reassess Garland in
the light of the prevailing originalist
interpretation of the Constitution.
Moreover, more recent decisions of this

12

Court have reemphasized the importance of an
arraignment and have put Garland’s holding in
doubt. This Court has held arraignment is a
“critical stage” of criminal proceedings, Powell v.
Alabama, 287 U.S. 45, 57, 53 (1932);
Arraignment is the first step in the criminal
prosecution and, as such, “far from a mere
formalism.” Kirby v. Illinois, 406 U.S. 682, 689
(1972), In fact, arraignment is so significant
that a defendant’s right to counsel attaches at
that time and not before. Brewer v. Williams,
430 U.S. 387, 398 (1977); Hamilton v. Alabama,
368 U.S. 52 (1961).
As this Court explained in Kirby:
“The initiation of judicial
criminal proceedings is far from a
mere formalism. It is
the starting point of our whole system
of adversary criminal justice. For it is
only then that the government has
committed itself to prosecute, and only
then that the adverse positions of
government and defendant have
solidified. It is then that a defendant
finds himself faced with the
prosecutorial forces of organized
society, and immersed in the
intricacies
of
substantive
and

13

procedural criminal law. It is this
point, therefore, that marks the
commencement of the "criminal
prosecutions" to which alone the
explicit guarantees of the Sixth
Amendment are applicable.”

Kirby, 406 U.S. at 689-90. (Emphasis
supplied).
In this case, for no good reason, this vital
step in the criminal process, the “starting point
of our whole system of adversary criminal
justice” was unreasonably delayed for 630 days.
This Court should therefore grant the petition to
consider whether this unnecessary delay
violates due process.

14

CONCLUSION
For the foregoing reasons, the petition for
writ of certiorari should be granted.
Respectfully
submitted,
RICHARD JANUSZ
By:
/s/ Stephen L. Richards
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioner Richard Janusz
* Counsel of Record

1

CONTENTS OF APPENDIX
APPENDIX A (Order of the Illinois Supreme
Court Denying Petition for Leave to
Appeal)………………………………….………..…2
APPENDIX B (Order of the Illinois Appellate
Court for the Second District)…………..………3
APPENDIX C (Decision of Circuit Court)…....43

2

APPENDIX A

IN THE SUPREME COURT OF ILLINOIS
________________
No. 126564

PEOPLE OF THE STATE OF ILLINOIS
Plaintiff-Respondent,
-vsRICHARD JANUSZ,
Defendants-Appellant.
______________
[January 29, 2021]
______________

Disposition: Petition for leave to appeal
denied.

3

APPENDIX B
IN THE APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
________________
No. 2–19–0017
The PEOPLE of the State of Illinois, PlaintiffAppellee,
v.
RICHARD JANUSZ,
Defendant-Appellant.
2020 IL App (2d) 190017
______________
[February 1, 2018]
______________

4

The PEOPLE of the State of Illinois, PlaintiffAppellee, v. Richard JANUSZ , DefendantAppellant.

Stephen L. Richards, of Chicago, for appellant.
Richard D. Amato, State's Attorney, of Sycamore
(Patrick Delfino, Edward R. Psenicka, and
Richard S. London, of State's Attorneys
Appellate Prosecutor's Office, of counsel), for the
People.

JUSTICE BRIDGES delivered the judgment of
the court, with opinion.

Stephen L. Richards, of Chicago, for appellant.

Richard D. Amato, State's Attorney, of Sycamore
(Patrick Delfino, Edward R. Psenicka, and
Richard S. London, of State's Attorneys
Appellate Prosecutor's Office, of counsel), for the
People.

5

JUSTICE BRIDGES delivered the judgment of
the court, with opinion. ¶ 1 Following a jury
trial, defendant, Richard Janusz , was found
guilty of 11 counts of predatory criminal sexual
assault of a child ( 720 ILCS 5/11-1.40(a)(1)
(West 2014)) and 4 counts of manufacturing
child pornography (id. § 11-20.1(a)(1)(vii)).
Defendant was sentenced to 101 years'
imprisonment.

¶ 2 On appeal, defendant argues that the trial
court erred in (1) denying his motion to dismiss
on speedy-trial grounds and (2) denying his
motion for a new trial based on his trial counsel's
ineffective assistance. We affirm.

¶ 3 I. BACKGROUND

¶ 4 A. Pretrial

¶ 5 Defendant was charged by information on
August 1, 2014, with 15 counts of predatory
criminal sexual assault of a child in violation of
section 11-1.40(a)(1) of the Criminal Code of

6

2012 (Criminal Code) (id. § 11-1.40(a)(1)) and 3
counts of possession of child pornography in
violation of section 11-20.1(a)(6) of the Criminal
Code (id. § 11-20.1(a)(6)). The 15 counts of
predatory criminal sexual assault of a child
alleged that, between January 1, 2010, and July
30, 2014, defendant knowingly committed acts of
sexual penetration of R.M., a minor under the
age of 13, in that he placed his finger in R.M.'s
sex organ. The three counts of possession of child
pornography alleged that, on or about July 31,
2014, defendant possessed a visual reproduction
or depiction by computer of a child whom
defendant knew or should have known to be
under the age of 13 engaged in the lewd
exhibition of the child's genitals.

¶ 6 At the August 1, 2014, hearing, the court
advised defendant of the charges against him
and the punishments should he be convicted,
including consecutive sentences of at least six
years per charge of predatory criminal sexual
assault of a child and lifetime registration as a
sex offender. Defendant stated that he
understood the charges against him, and the
court appointed a public defender. On August 19,
2014, defendant filed a demand for a speedy
trial.

7

¶ 7 On August 20, 2014, defendant appeared
with his appointed counsel, and counsel
requested a status date for after he had time to
review material from the State. The court
entered an order of continuance by agreement
and set a status hearing for September 29, 2014.
Following the September 29 hearing, the court
entered additional orders of continuance by
agreement, on September 29 and October 1,
2014.

¶ 8 On October 6, 2014, a grand jury returned a
30-count indictment against defendant. Counts I
through XXVI were for predatory criminal
sexual assault of a child (id. § 11-1.40(a)(1)) for
committing acts of sexual penetration with R.M.,
including placing his penis in R.M.'s anus,
placing his finger in R.M.'s sex organ, and
placing his mouth on R.M.'s sex organ, and
counts XXVII through XXX were for the
manufacture of child pornography (id. § 1120.1(a)(1)(i),
(vii))
in
that
defendant
photographed a child he knew to be under the
age of 13 depicting a lewd exhibition of the
child's unclothed pubic area, depicting a lewd
exhibition of the child's unclothed breasts, and

8

depicting an act of sexual penetration involving
defendant's sex organ and the child's anus.

¶ 9 Defendant acknowledged receipt of the
indictment on October 8, 2014. The trial court
stated that counsel would have the opportunity
to review the indictment with defendant before
an arraignment on the next court date. The case
was again continued by agreement to November
4, 2014, but defendant was not arraigned on
November 4.

¶ 10 Between the October 8 and November 4
hearings, defendant retained new counsel. At
the November 4 hearing, defendant's new
counsel filed an appearance and the trial court
discharged the public defender. The case was
continued by agreement after the November 4
hearing and again after a December 4 hearing.

¶ 11 The case was then continued multiple times
at defendant's request: January 22, 2015 (for
defense counsel to review discovery); March 12,
2015 (for defense counsel to review evidence in
the possession of the police department); April

9

23, 2015 (following receipt of disclosures from
the State); July 14, 2015 (after retaining an
expert); August 24, 2015 (based on defendant's
divorce trial set in September); October 15, 2015
(awaiting the ruling on defendant's divorce
case); December 3, 2015 (following resolution of
defendant's divorce case and the release of
marital funds); January 4, 2016 (to acquire
experts); and March 3, 2016 (waiting to hear
from retained experts). Defense counsel failed to
appear on June 18, 2015, and August 20, 2015,
and those hearings were instead continued to
July 14, 2015, and August 24, 2015, respectively.
In addition, the court entered an order of
continuance by agreement on November 3, 2015.

¶ 12 At the October 15, 2015, hearing, the trial
court remarked that it was "not sure if we've had
an arraignment on the case." The assistant
state's attorney responded that the indictment
was tendered in 2014, so she hoped so. The court
scheduled defendant's arraignment for the next
court date, but it did not occur. The court again
brought up defendant's lack of an arraignment
on March 3, 2016, and it set his arraignment for
April 21, 2016.

10

¶ 13 Defendant was arraigned on April 21, 2016.
The trial court admonished defendant that all 30
charges against him were Class X felonies and
therefore he could not receive probation. The
court also admonished him that, if he were
convicted of all counts, his minimum sentence
would be 186 years and his maximum sentence
would be 1680 years. Further, the court
continued, defendant would also be subject to at
least three years of mandatory supervised
release for up to natural life, and it advised him
of his right to plead not guilty, his right to be
represented by a lawyer, and his right to
confront witnesses. Defendant stated that he
understood his rights. Defendant waived a
formal reading of the charges, and he pled not
guilty. The court calculated this number using
the minimum sentence for a Class X felony (6
years) times 31 counts. We note, however, that
defendant was charged with 30 counts, so the
minimum should have been 180 years.

¶ 14 On June 2, 2016, defense counsel requested
additional discovery, based on defendant's
expert's initial review. The trial court continued
the case upon defendant's request.

11

¶ 15 On July 28, 2016, the trial court remarked
that the case was getting old and that it needed
to be either set for trial or in the posture of a
plea. Defense counsel responded that the defense
had hired an expert and that a large part of the
delay was due to defendant's divorce case. Now
that the divorce case was resolved, defendant
was obtaining money through the marital estate,
which had been frozen, to retain the expert.
Defense counsel asked for a continuance to
September 15, 2016, and the court entered the
order. On September 15, the court granted
another continuance, per defendant's request. It
set a status hearing for October 25, 2016, and it
set the jury trial for February 6, 2017. At the
October 25 status hearing, defense counsel again
sought a continuance to November 29, 2016, for
filing pretrial motions, and the court granted the
request.

¶ 16 On November 29, 2016, defendant filed a
motion to dismiss. He argued that various counts
were duplicative, violating the "one act, one
crime" doctrine, and he sought dismissal of
multiple counts. The trial court denied the
motion to dismiss on January 20, 2017, and it
continued the case to January 27 for any
additional motions. Defendant filed additional

12

motions on that date, including a demand for a
bill of particulars and a motion for discovery, and
the case was continued at defendant's request.

¶ 17 On January 31, 2017, the court determined
that the State did not need to respond to
defendant's bill of particulars. Defense counsel
then stated that he still intended to file another
motion once his expert provided a report.
Counsel agreed that he would not be ready for
trial the next week. He was seeking a
continuance. The State interjected that this
delay was not occasioned by the State. The court
agreed and turned to counsel, asking "[a]nd
that's tolled on the speedy trial because they're
answering ready, correct?" Counsel responded
yes and then stated that "I don't think we've ever
pulled the trigger on [defendant's] speedy, but I
would in fact toll it again." The case was
continued on defendant's request, and the
January 31, 2017, continuance order stated:
"delay occasioned by the defense" and "speedy
tolled." The case was continued several more
times by either agreement or defendant's
request.

13

¶ 18 On October 12, 2017, defendant filed a
motion to dismiss, based on a violation of his
right to a speedy trial under the Code of
Criminal Procedure of 1963 (Code of Criminal
Procedure) ( 725 ILCS 5/103-5, 114-1 (West
2016)) as well as the sixth amendment of the
United States Constitution ( U.S. Const., amend.
VI ). Therein, defendant argued that no trial
date was set within 120 days of him being taken
into custody and that the delay could not be
attributable to him. In addition, he argued that
he had not been arraigned for 630 days and that
this delay was attributable to the State. The
matter was continued, and the trial date was
stricken.

¶ 19 On October 18, 2017, defendant filed an
amended motion to dismiss, and on November
16, 2017, he filed a second amended motion to
dismiss. The second amended motion added
numerous dates when the case was continued
and argued that those delays were attributable
to the State or the trial court. Defense counsel
did not file his memorandum in support of his
motion to dismiss until January 12, 2018, after
several more continuances.

14

¶ 20 The trial court denied defendant's motion to
dismiss on February 1, 2018. In addressing the
dates of the continuances, the court disagreed
that the continuances were attributable to the
State or the court. Rather, the continuances
were either attributable to defendant or by
agreement. Therefore, it concluded, all the cited
continuances tolled the speedy-trial period. The
court also determined that there was no
requirement that defendant be arraigned within
a certain time frame following his indictment. It
noted that defendant acknowledged that he
could find no case law specific to the issue
requiring arraignment within a certain time
frame of an indictment.

¶ 21 B. Trial

¶ 22 Defendant's jury trial commenced on May
7, 2018. R.M. testified as follows. She was born
on April 11, 2003, and was 15 years old at the
time of the trial. Defendant was her stepfather.
Her parents divorced when she was two years
old, and her mother moved in with defendant
after the divorce. She lived with her mother and
defendant in several houses, first in Sheridan

15

(and then at two residences in Sycamore. The
family moved from Sheridan to Sycamore when
she was in fifth grade. They moved again to
another residence in Sycamore by the time she
was in sixth grade.

¶ 23 Defendant sexually abused her beginning
when she was six or seven years old. The first
time that defendant abused her, he touched her
breast and nipple with his hand. This occurred
in their truck while they were driving back from
bowling. It made her feel unsafe.

¶ 24 Defendant touched her with his hand on
subsequent occasions. He used his hand to touch
her "vaginal area" under her clothing. He
touched her "[i]nside and outside." She described
the experience as painful. She was still at the
Sheridan house when this type of touching
began.

¶ 25 This type of touching continued at the
Sycamore residences. At the first residence, he
touched her when they were either in his room,
the living room, or the basement. When they

16

were in his room, it was on the bed. He touched
her "vaginal [sic ] and [her] boob" when they
were on the bed. When he touched her vaginal
area, he touched "inside." He touched her when
they were in his room more than five times.

¶ 26 When defendant touched her when they
were in the living room, she would be on his lap,
on the couch. He would put his hand in her pants
and "go inside" her vaginal area. Sometimes
others were present in the room, but they could
not see what was happening. She was covered by
a blanket from the torso down. Sometimes she
jerked away because she was in pain. Defendant
touched her when they were in the living room
several times. R.M. had tried to tell people that
defendant touched her when the abuse first
began, but people did not believe her.

¶ 27 In the basement, defendant would be in a
chair and she would be on his lap. When she was
on his lap, he put his hand down her pants and
touched her inside her vaginal area. This
occurred more than five times.

17

¶ 28 The same type of touching occurred at the
second Sycamore residence. There, defendant
touched her when they were in his room and in
the living room. He touched her inside her
vaginal area with his hand more than five times.

¶ 29 In addition, defendant used his tongue to
touch her vaginal area and her nipple. The first
incident was in her bedroom at the Sheridan
residence, before she went to bed. She
remembered that the next day was "crazy hair
day" at school. She wanted to get hair products
for her hair, and defendant said that, if he could
lick her vaginal area, he could get her the
products but that, if she did not let him, he could
not. She let him do it, and it felt gross.

¶ 30 Defendant used his tongue to touch her in
the same way at the Sycamore residences as he
had at the Sheridan residence. She did not know
how many total times he used his tongue to
touch her, but it was more than once.

¶ 31 Defendant also touched her with his penis
by putting his penis inside her anus. This first

18

happened at the first Sycamore residence. It was
in his room, and nobody else was home that day.
She remembered that she was wearing
SpongeBob pajama pants and a shirt with a
cheetah print heart and that she was playing a
game on her phone. Defendant came out of the
shower naked and had her come to him. He
pulled down her pants and inserted his penis
into her anus. It felt painful.

¶ 32 Defendant took pictures of her that day. He
took pictures of her breasts; she was lifting her
shirt up to expose them. The State showed her
People's Exhibit 1, which was the picture of her
breasts. She identified herself in the picture, and
the exhibit was admitted into evidence. She also
identified pictures of her vaginal area taken by
defendant that same day. Those pictures were
admitted into evidence.

¶ 33 Defendant also made her touch him by
putting her hand on his penis. This occurred
more than once. It felt disgusting and hairy.

19

¶ 34 On July 31, 2014, around 5 a.m., the police
showed up at her house. She was taken to family
counseling, where she was interviewed and told
what defendant had done to her.

¶ 35 On redirect, R.M. stated that the abuse
happened often, making it hard to remember
specific dates.

¶ 36 Shannon Krueger testified next as follows.
She was a certified pediatric nurse practitioner,
and she worked for the University of Illinois
College of Medicine Medical Evaluation
Response Initiative Team program. They took
referrals from the Department of Children and
Family Services and other agencies when a child
was suspected to have been physically or
sexually abused. She examined R.M., and R.M.
told her about defendant touching her,
beginning around age seven. R.M. told her that
defendant touched both her vaginal area and her
"butt," including that defendant had progressed
to putting his penis in her anal area. R.M. said
that defendant touched her about four times a
week, sometimes touching her underneath a

20

blanket while in the presence of other family
members.

¶ 37 Krueger's examination revealed redness of
the labia minora and some anal laxity. The
findings were nonspecific, but that was not
unusual in an abuse case. The hymenal, vaginal,
and anal tissues were observed, and they are
mucous membranes, which are made to stretch
and which heal quickly. Thus, any finding of
ripping or tearing of these membranes was rare
in these types of abuse cases.

¶ 38 Detective Jonathan Miller testified that he
interviewed defendant on July 31, 2014, and
that the interview was recorded on video. The
video of the interview was admitted into
evidence. Miller testified that he asked
defendant whether defendant penetrated R.M.,
and defendant responded that he rubbed around
the vagina and applied pressure.

¶ 39 After the State rested, defendant moved for
a directed verdict on the counts involving

21

penetration of R.M.'s sex organ by defendant's
finger. The trial court denied the motion.

¶ 40 On May 10, 2018, the jury found defendant
guilty of 11 counts of predatory criminal sexual
assault of a child: one instance of placing his
penis in R.M.'s anus, two instances of placing his
mouth on R.M.'s sex organ, and eight instances
of placing his finger in R.M.'s sex organ. It also
found defendant guilty of four counts of
manufacturing child pornography. Defendant
was sentenced to 101 years in the Illinois
Department of Corrections.

¶ 41 C. Posttrial

¶ 42 Following the jury verdict, defense counsel
withdrew his representation of defendant, and
defendant retained substitute counsel. His new
counsel entered an appearance on July 13, 2018.

¶ 43 On July 30, 2018, defendant moved for a
new trial and/or judgment notwithstanding the
verdict. He filed a supplemental motion for new

22

trial on November 5, 2018. In part, defendant
argued that he was deprived of the effective
assistance of counsel for his trial counsel's
failure to submit instructions on the lesser
included offense of aggravated criminal sexual
abuse for the charges of predatory criminal
sexual assault of a child. He also argued that the
court erred in denying his motion to dismiss on
speedy-trial grounds.

¶ 44 The trial court heard defendant's motion for
new trial on January 3, 2019. Defendant
testified at the hearing as follows. Before the
trial, his trial counsel never discussed with him
the possibility of submitting an instruction on
the lesser included offense of aggravated
criminal sexual abuse. Before his trial counsel
moved for a directed verdict, defendant asked
him to include a lesser-included-offense
instruction in the directed-verdict motion. Trial
counsel did not do so. Defendant was unaware
that the lesser-included-offense instruction
could have been submitted to the jury. Had he
known, he would have requested that the
instruction go to the jury.

23

¶ 45 Defendant clarified on cross-examination
that he believed that the lesser-included-offense
instruction could be submitted to the judge but
that he could not ask for it to be submitted to the
jury. He thought that it was the judge's decision
to submit the instruction to the jury.

¶ 46 The trial court denied the motion for a new
trial. First, it did not believe defendant's
testimony. It did not believe that defendant
asked his trial counsel for a lesser-includedoffense instruction, and it did not believe
defendant's testimony that he thought he could
ask for a lesser-included-offense instruction on a
directed verdict but not at other times.
Moreover, even if the court believed defendant,
the decision was a matter of trial strategy. The
court believed that counsel's trial strategy was
to demonstrate that defendant was "out-and-out
not guilty" instead of asking for a lesserincluded-offense instruction.

¶ 47 Defendant timely appealed.

24

¶ 48 II. ANALYSIS

¶ 49 Defendant makes two arguments on appeal.
First, he argues that the trial court erred in
denying his motion to dismiss on speedy-trial
grounds. In particular, he argues that he was not
arraigned until 630 days after his arrest and
that the delays in his arraignment were not
attributable to him. Second, defendant argues
that the trial court erred in denying his motion
for a new trial, because his trial counsel was
ineffective for failing to submit instructions on
the lesser included offense of aggravated
criminal sexual abuse. We address his
arguments in turn.

¶ 50 A. Speedy Trial

¶ 51 Defendant argues that his delayed
arraignment violated his right to a speedy trial
and that therefore the trial court erred in
denying his motion to dismiss on speedy-trial
grounds. Citing section 103-5(a) of the Code of
Criminal Procedure ( 725 ILCS 5/103-5(a) (West
2016)), defendant argues that an unexplained

25

delay in arraignment beyond 120 days from the
date of an arrest violates a defendant's speedytrial right. He notes that he was arrested on
August 1, 2014, and demanded a speedy trial on
August 19, 2014, but that he was not arraigned
until April 21, 2016, which was 630 days
following his arrest.

¶ 52 Further, he continues, an arraignment is
not optional but is a critical stage of a criminal
proceeding. Defendant concedes that the Code of
Criminal Procedure does not specify a time
frame for arraignment, but he argues that,
under ordinary principles of statutory
construction, an arraignment must occur within
a reasonable time after an arrest. He argues that
his arraignment more than 600 days following
his arrest was unreasonable.

¶ 53 Defendant admits that his attorneys
acquiesced to "a large number of continuances"
between his demand for a speedy trial on August
19, 2014, and his arraignment on April 21, 2016.
Defendant argues, however, that in the absence
of an arraignment, trial delays cannot be
attributed to him. Defendant argues that,

26

without an arraignment, it was not possible for
him to agree to a postponement of the trial.
Moreover, he argues that a defendant has no
right to demand or refuse an arraignment and
that therefore the delay in his arraignment
cannot be attributed to him. He argues that the
delay in his arraignment was solely the fault of
the court and the State.

¶ 54 The State responds that defendant has
failed to cite case law supporting that the delays
in his arraignment were not attributable to him.
The State agrees with defendant that section
103-5 provides an accused's statutory right to a
speedy trial and that, in this case, section 1035(a)'s 120-day term applied. Id. However, the
State argues that, under section 103-5(a), any
delay occasioned by the defendant will be
excluded from the speedy-trial term. The State
continues, noting that a delay is occasioned by a
defendant when his acts caused or contributed to
a delay resulting in the postponement of the
trial, that is, any action that moves the trial date
outside of the speedy-trial term. The State
argues that, here, defendant was arraigned prior
to the trial and prior to raising a speedy-trial
objection and that each continuance between

27

defendant's arrest and his arraignment was
either by his request or by agreement.

¶ 55 We reject defendant's argument that his
arraignment violated his statutory right to a
speedy trial. In Illinois, a defendant has both a
constitutional and a statutory right to a speedy
trial. People v. Bauman , 2012 IL App (2d)
110544, ¶ 16, 367 Ill.Dec. 421, 981 N.E.2d 1149
(citing U.S. Const., amends. VI, XIV, Ill. Const.
1970, art. I, § 8, and 725 ILCS 5/103-5 (West
2010) ). The Illinois speedy-trial statute
implements the constitutional right to a speedy
trial ( id. ), although the constitutional and
statutory rights to a speedy trial are not
necessarily coextensive (People v. Kilcauski ,
2016 IL App (5th) 140526, ¶ 19, 407 Ill.Dec. 107,
62 N.E.3d 352 ).

¶ 56 On appeal, defendant argues his statutory
right to a speedy trial. Our standard of review
for a statutory speedy-trial issue is twofold.
First, absent an abuse of discretion, we will
sustain the trial court's determination as to who
is responsible for a delay in the trial ( People v.
Kliner , 185 Ill. 2d 81, 115, 235 Ill.Dec. 667, 705

28

N.E.2d 850 (1998) ), and, second, we review de
novo the ultimate question of whether the
defendant's statutory right was violated ( People
v. Pettis , 2017 IL App (4th) 151006, ¶ 17, 415
Ill.Dec. 838, 83 N.E.3d 422 ). To avoid
infringements of the defendant's constitutional
right to a speedy trial, the statutory speedy-trial
provisions are to be liberally construed in favor
of the defendant. Bauman , 2012 IL App (2d)
110544, ¶ 16, 367 Ill.Dec. 421, 981 N.E.2d 1149.

¶ 57 Because defendant was in custody following
his arrest, the relevant speedy-trial provision is
section 103-5(a) of the Code of Criminal
Procedure ( 725 ILCS 5/103-5(a) (West 2016)). It
provides:

"Every person in custody in this State for an
alleged offense shall be tried by the court having
jurisdiction within 120 days from the date he or
she was taken into custody unless delay is
occasioned by the defendant * * *. Delay shall be
considered to be agreed to by the defendant
unless he or she objects to the delay by making a
written demand for trial or an oral demand for
trial on the record." Id.

29

There is no question that more than 120 days
passed between when defendant was arrested
and when he was tried. See People v. Mayo , 198
Ill. 2d 530, 536, 261 Ill.Dec. 910, 764 N.E.2d 525
(2002) (the statutory period begins to run from
the day the defendant is taken into custody,
regardless of a formal trial demand).
Accordingly, the relevant question is whether
defendant occasioned the delay in his trial.
Delay is occasioned by a defendant when his acts
caused or contributed to a delay resulting in a
postponement of his trial. People v. Murray , 379
Ill. App. 3d 153, 158-59, 318 Ill.Dec. 102, 882
N.E.2d 1225 (2008). Actions that cause or
contribute to a delay include requests and
agreements for a continuance. People v.
Patterson , 392 Ill. App. 3d 461, 467, 332 Ill.Dec.
58, 912 N.E.2d 244 (2009).

¶ 58 The trial court found that the delays in this
case were attributable to defendant. The court
cited the numerous continuance orders from
when defendant was taken into custody until
when he was arraigned. The record reflects that
all these continuance orders were entered either
at defendant's request or by agreement. See
supra ¶¶ 7-11. Defendant even concedes that his
attorneys acquiesced to numerous continuances.

30

Because a defendant occasions a delay under
section 103-5(a) when he requests or agrees to a
continuance and because these continuances
resulted in defendant's trial commencing beyond
the 120-day statutory period, the trial court's
determination that these delays were occasioned
by defendant was not an abuse of discretion. We
further note that many of the continuances
following defendant's arraignment on April 21,
2016, until his trial on May 7, 2018, were
occasioned by defendant. See supra ¶¶ 14-19.

¶ 59 Nevertheless, defendant argues that section
103-5(a) required his arraignment within either
120 days or a reasonable time and that any delay
of his trial before he was arraigned could not be
attributed to him. We decline to interpret section
103-5(a) as providing an implicit time frame for
an arraignment. Section 103-5(a) specifically
contemplates the time frame for proceeding from
custody to trial . See People v. Cordell , 223 Ill.
2d 380, 390, 307 Ill.Dec. 669, 860 N.E.2d 323
(2006) (Section 103-5(a) "provides only a starting
point—the date custody begins, and an ending
point—120 days later."). It is silent on
arraignment, as well as any other stage between
a defendant's custody and trial.

31

At oral argument, defendant's counsel conceded
that his speedy-trial argument was based on the
delay in his arraignment and that, absent his
delayed arraignment, the continuances would
have been delays occasioned by defendant and
he would have had no good speedy-trial
argument.
¶ 60 Consider the scenario where a defendant is
arraigned 150 days after entering custody. His
trial commences thereafter, without any delay
attributed to the defendant. In such a situation,
section 103-5(a) would be violated. Importantly,
the statutory violation would not be because the
defendant's arraignment occurred outside the
120-day period but rather because his trial
commenced outside the 120-day statutory
period. In a different scenario, if a defendant
were timely tried without being arraigned, the
failure to arraign the defendant would not
necessarily affect the validity of the proceedings.
See 725 ILCS 5/113-6 (West 2016) ("Neither a
failure to arraign nor an irregularity in the
arraignment shall affect the validity of any
proceeding in the cause if the defendant pleads
to the charge or proceeds to trial without
objecting to such failure or irregularity.").

32

¶ 61 Finally, defendant is incorrect that he could
not occasion delay prior to his arraignment. See
Cordell , 223 Ill. 2d at 390, 307 Ill.Dec. 669, 860
N.E.2d 323 (delay does not need to be of a set
trial date; delay includes any action by either
party or the trial court that moves the trial date
outside of the 120-day statutory window). In
fact, as in this case, a delay in an arraignment
can be attributed to the defendant and toll the
speedy-trial window. See People v. Boyd , 363 Ill.
App. 3d 1027, 1037, 301 Ill.Dec. 56, 845 N.E.2d
921 (2006) ("[A]ny delay resulting from a
defendant's failure to proceed with an
arraignment is chargeable to the defendant
[citation]."); People v. Paulsgrove , 178 Ill. App.
3d 1073, 1076, 128 Ill.Dec. 111, 534 N.E.2d 131
(1988) (explaining that any delay occasioned by
the defendant's refusal to proceed with an
arraignment should be charged to the
defendant).

¶ 62 Accordingly, defendant's statutory speedytrial right was not violated, and the trial court
did not err in denying defendant's motion to
dismiss.

33

¶ 63 B. Ineffective Assistance of Counsel

¶ 64 Defendant's second argument is that the
trial court should have granted his motion for a
new trial, based on his trial counsel's ineffective
assistance. Specifically, defendant argues that
his trial counsel did not discuss with him
whether to submit an instruction on aggravated
criminal sexual abuse ( 720 ILCS 5/11-1.60
(West 2014) ), which was a lesser included
offense of predatory criminal sexual assault of a
child (id. § 11-1.40). He argues that the decision
whether to tender an instruction on a lesser
included offense belongs to a defendant but that
the trial court here focused on his counsel's
performance instead of counsel's failure to
discuss the instruction with him.

¶ 65 Moreover, defendant argues that his trial
counsel's failure to submit the instruction was
prejudicial. Several of the predatory-criminalsexual-assault-of a child counts alleged that
defendant placed his finger in R.M.'s sex organ.
Defendant argues that aggravated criminal
sexual abuse, which requires an act of sexual

34

conduct done for sexual gratification or arousal,
is contained within the charge of predatory
criminal sexual assault, which requires an act of
sexual penetration. Further, the evidence at
trial would have allowed a rational jury to find
him guilty of aggravated criminal sexual abuse
and not guilty of predatory criminal sexual
assault, with respect to the charges based on
digital penetration. Defendant points to Miller's
testimony that defendant denied penetrating
R.M.'s vagina but rather said that he rubbed
around her vagina and applied pressure.
Defendant also cites his counsel's closing
argument, where counsel argued that defendant
"[threw] away his self-protection and he [told]
the truth," in that he confessed that he rubbed,
touched, and fondled R.M. but denied any
penetration.

¶ 66 The State responds that the trial court
properly denied defendant's motion for a new
trial. The State does not contest that aggravated
criminal sexual abuse is a lesser included offense
of predatory criminal sexual assault of a child.
Nevertheless, the State argues, the decision
whether to include the instruction was a matter
of trial strategy. Moreover, the State continues,
the court made specific credibility findings

35

against defendant on his motion for a new trial.
In particular, the court found defendant's
testimony on the motion incredible, stating:

"I don't believe [defendant]. I don't believe
[defendant] when he just testified that he knew
he could at [the] directed [verdict] stage ask for
a lesser-included offense * * * I don't believe him
when he said that he asked [counsel] for a lesserincluded offense, and I find his testimony
incredible."
The State argues that the court's credibility
determination is due great deference and that
this alone should lead us to affirm on this issue.

¶ 67 The State continues, arguing that,
regardless
of
the
court's
credibility
determinations, defendant was not entitled to
the lesser-included-offense instruction. The
State cites testimony from the trial, including
R.M.'s testimony that defendant touched her
both inside and outside of her vaginal area on
multiple occasions. The State also cites
defendant's admissions that he rubbed, touched,
and fondled R.M.'s genitals, and it argues that

36

these admissions alone can support sexual
penetration.

¶ 68 We hold that the trial court did not err in
denying defendant's motion for a new trial,
because defendant's trial counsel was not
ineffective. We generally review a trial court's
decision on a motion for new trial for an abuse of
discretion. Hamilton v. Hastings , 2014 IL App
(4th) 131021, ¶¶ 24, 383 Ill.Dec. 667, 14 N.E.3d
1278, 26. However, the core issue here is
whether defendant's trial counsel was
ineffective. In reviewing a claim of ineffective
assistance of counsel, we defer to the trial court's
factual findings, but we review de novo the
ultimate issue whether counsel was ineffective.
People v. Westmoreland , 2013 IL App (2d)
120082, ¶ 27, 375 Ill.Dec. 275, 997 N.E.2d 278.

¶ 69 Under the sixth amendment, a defendant is
guaranteed the right to effective counsel at all
critical stages of a criminal proceeding. U.S.
Const., amend. VI ; People v. Sturgeon , 2019 IL
App (4th) 170035, ¶ 81, 430 Ill.Dec. 615, 126
N.E.3d 703. To demonstrate ineffective
assistance of counsel, a defendant must show

37

two elements: (1) counsel's performance fell
below an objective standard of reasonableness
and (2) counsel's deficient performance
prejudiced the defendant. People v. Jackson ,
2020 IL 124112, ¶ 90, ––– Ill.Dec. ––––, –––
N.E.3d –––– (citing Strickland v. Washington ,
466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984) ). Prejudice means that, absent
counsel's deficient performance, there is a
reasonable probability that the result of the
proceeding would have been different. Id. A
defendant must satisfy both prongs, and
therefore we may dispose of an ineffective
assistance claim on either prong. Id.

¶ 70 We dispose of defendant's claim on the
prejudice prong because there was no reasonable
probability that the jury would have convicted
defendant of aggravated criminal sexual abuse
instead of predatory criminal sexual assault of a
child. Here, the salient difference between the
two offenses is that predatory criminal sexual
assault of a child requires an act of "sexual
penetration" ( 720 ILCS 5/11-1.40(a) (West
2014)), whereas aggravated criminal sexual
abuse requires "sexual conduct" (id. § 11-1.60(b),
(c)). The Criminal Code defines sexual
penetration as:

38

"[A]ny contact, however slight, between the sex
organ or anus of one person and an object or the
sex organ, mouth, or anus of another person, or
any intrusion, however slight, of any part of the
body of one person or of any animal or object into
the sex organ or anus of another person ,
including, but not limited to, cunnilingus,
fellatio, or anal penetration." (Emphasis added.)
Id. § 11-0.1.
In contrast, sexual conduct requires only any
knowing touching or fondling by the accused,
either directly or through clothing, of the body of
a child under 13 years of age for the purpose of
sexual gratification or arousal. Id.

¶ 71 Whether sexual penetration occurred is a
question of fact to be determined by the jury.
People v. Hillier , 392 Ill. App. 3d 66, 69, 331
Ill.Dec. 108, 910 N.E.2d 181 (2009). In Hillier ,
the court affirmed a finding of sexual
penetration even without specific testimony that
the defendant was inside the victim's vagina. See
id. (a jury may reasonably infer penetration
based on testimony that a defendant "rubbed,"
"felt," or "handled" the victim's vagina, and

39

this inference is unreasonable only if the victim
denies penetration). Recently, this court held
that a victim's testimony that the defendant
"touched" and "poked" her vagina was evidence
from which a reasonable jury could infer sexual
penetration by the defendant's finger. People v.
Foster , 2020 IL App (2d) 170683, ¶¶ 32-36, –––
Ill.Dec. ––––, ––– N.E.3d ––––. In Foster , we
based the holding on the totality of the
circumstances, which included the victim's use of
the words "hurts," "puts," and "would put" to
describe the defendant's intrusion to her vagina.
(Internal quotation marks omitted.) Id. ¶ 36.
Moreover, we are cognizant that sexual
penetration is not limited to an intrusion,
however slight, of the vagina; the female sex
organ also includes the labia majora and the
labia minora. People v. W.T. , 255 Ill. App. 3d
335, 347, 193 Ill.Dec. 437, 626 N.E.2d 747 (1994)
; see People v. Gonzalez , 2019 IL App (1st)
152760, ¶ 46, 436 Ill.Dec. 150, 142 N.E.3d 253
(affirming the jury's finding of an act of sexual
penetration where one victim circled the labia
majora on a diagram to identify where the
defendant was " ‘rubbing and pressing down’ ").

¶ 72 At trial, R.M. repeatedly testified that,
when defendant touched her with his hand, he

40

touched her inside her vaginal area. She testified
that, beginning at the Sheridan residence,
defendant used his hand to touch her under her
clothing. He touched her "[i]nside and outside,"
and she described the touching as painful.

¶ 73 Turning to the first Sycamore residence,
R.M. testified that, when she and defendant
were on his bed, he touched "inside" her vaginal
area. He did this more than five times. She
testified that, when they were in the living room,
she would sit on his lap on the couch. He would
put his hand down her pants and "go inside" her
vaginal area. She sometimes jerked away
because she was in pain. He did this several
times. She also testified that, when they were in
the basement, she would sit in his lap and he
would put his hand down her pants and touch
her inside her vaginal area. This occurred more
than five times.

¶ 74 Finally, R.M. testified that defendant
touched her inside her vaginal area more than
five times at the second Sycamore residence. The
touching occurred in his room and in the living
room.

41

¶ 75 R.M.'s testimony was sufficient for a
rational jury to find that defendant committed
acts of sexual penetration and to convict
defendant of predatory criminal sexual assault
of a child. Moreover, defendant's statements do
not contradict that sexual penetration occurred.
Rather, his statements were that he rubbed
around and applied pressure to R.M.'s vagina.
Those statements alone would have been
sufficient for a jury to have found sexual
penetration (see supra ¶ 71), but those
statements were not alone in this case. R.M.'s
testimony consistently described an intrusion of
defendant's hand into her vaginal area, and thus
there was no reasonable probability that an
instruction for aggravated criminal sexual abuse
would have resulted in a different outcome.
Accordingly, defendant did not establish that his
trial counsel was ineffective and the trial court
did not abuse its discretion in denying
defendant's motion for a new trial on that basis.

¶ 76 III. CONCLUSION

42

¶ 77 For the reasons stated, we affirm the
judgment of the De Kalb County circuit court.

¶ 78 Affirmed.

Justices McLaren and Schostok concurred in the
judgment and opinion.

43

APPENDIX C
IN THE CIRCUIT COURT OF THE TWENTYTHIRD JUDICIAL CIRCUIT
DEKALB COUNTY, ILLINOIS
_____________________
No. 2014-CF-000575
_____________________
[August 15, 2018]
_____________________
Honorable Judge Philip G. Montgomery,
Presiding
THE COURT: Okay, thank you.
Okay. I've considered the arguments of
counsel, the applicable law, and the written
pleadings in the file.
On August 1st, 2014 the defendant was charged
by way of information with 15 counts of
predatory criminal sexual assault of a child and
three counts of possession of child pornography.
On August 19th, 2014 a written speedy trial

44

demand was filed.
On October 6th, 2014 by way of indictment, the
defendant was charged with 26 counts of
predatory criminal sexual assault of a child and
four counts of manufacture of child pornography.
On April 21st, 2016 the defendant was
arraigned.
On October 12th, 2017 the defendant filed his
first motion to dismiss based on speedy trial
arguments as well as others.
On October 18th, 2017 the defendant filed an
amended motion to dismiss based on speedy trial
violation.
On November 16th, 2017 the defendant filed a
second amended motion to dismiss based on
speedy trial violation.
And then on January 31st he filed his third
motion to dismiss based on a speedy trial
violation.
On January 12th, 2018 the defendant filed a
memorandum of law in support of his motion
alleging among other things that the delay

45

between the date of indictment and the date of
arraignment are all attributable to the State.
Additionally, that there were court scheduling
issues that caused delay, and all those delays
should be attributable to the State. The dates the
defendant claims the Court was unavailable and
are therefore attributable to the State are as
follows: October 1st, 2014; January 22nd, 2015;
March 12th, 2015; July 14th, 2015; August 20th,
2015; August 24th, 2015; December 3rd, 2015;
January 14th, 2016; and April 21st, 2016.
He then states several delays were attributable
to the State. Those dates include August 1st,
2014; August 20th, 2014; October 8th, 2014;
October 15th, 2015; March 3rd, 2016; June 2nd,
2016; July 28th, 2016; March 16th, 2017; April
20th, 2017; May 11th, 2017; and June 1st of
2017.
A defendant's right to a speedy trial is governed
by 725 ILCS 5/103-5. This section states in
pertinent part that every person in custody in
this state for an alleged offense shall be tried by
the court having jurisdiction within 120 days
from the date he was taken into custody unless
delay is occasioned by the defendant. Delay shall
be considered to be agreed to by the defendant

46

unless he objects to the delay by making a
written demand for trial or an oral demand for
trial on the record.
The defendant has the burden of proving that
the State has violated this statute.
725 ILCS 5/111-1 et al. governs commencement
of prosecutions. It does not provide a statutory
framework as to the timeframe between
indictment and arraignment.
The
defendant
in
his
memorandum
acknowledges that he could find no case law
specific to this issue requiring somebody be
arraigned within a certain timeframe .of an
indictment. the defendant be arraigned within a
certain timeframe of indictment.
Case law is clear that an express agreement to a
continuance on the record is an affirmative act
attributable to the defendant.
Looking at the dates the defendant claims the
There is no requirement that Court was
unavailable and should be attributable to
the State in the order the defendant has written
them in paragraph 7 are as follows:

47

October 1st, 2014 the case is in front of Judge
McAdams. The defendant's attorney at that time
was not Mr. Gruber. The defendant's attorney
indicated he had received additional discovery,
and that the matter was also up for discussion
relative to bond conditions. Defendant's attorney
stated:
"DEFENDANT'S ATTORNEY: Since
this is Judge Stuckert's bond, I'd just
as soon have her deal with it when
she gets back.
THE COURT: What date would you
like before Judge Stuckert?
DEFENDANT'S
ATTORNEY:
October 8th."
And that was the date the defendant was given
at his request. The court order also shows this
date was by agreement.
January 22nd, 2015 the case appeared before
Judge Pilmer.
"THE COURT: Good morning, Mr.
Gruber. What are you asking? What
do you want me to do?
MR. GRUBER: Well, I've received
discovery, I'm still going through that

48

with my client, and we are in
negotiations with the State. Could I
have the 12th, Thursday the 12th of
March?"
And the Court gave it the date Mr. Gruber asked
for.
Additionally, the court order
continued by the defendant.

is

marked

June 12th, 2015 Judge Pilmer was presiding.
The Court states:
"THE COURT:
So this is up for further status.
MR. GRUBER: Yes, your Honor. I
need to go to the police department
and view the evidence that the police
have in their possession. You have
the evidence the State has disclosed
to me, but there's certain evidence
that can't be tendered to me. I can
view it at the confines of the police
department.
THE COURT: Okay. How long is it
going to take you?
MR. GRUBER: At least a month. Also

49

there's a separate matter that's in the
middle of trial upstairs as well as a
family case matter that will
determine whether or not there's any
money to do any sort of expert, so
we're in a holding pattern at least for
as far as that is concerned.
THE COURT: As far as a future date?
MR. GRUBER: Either 30 or 45,
depending on the Court's schedule
and the State's decision.
MS. FINLEY: Somewhere in April,
late April?
MR. GRUBER:
Sure. Could we go to the 23rd of April?
MS. FINLEY: That's fine.
THE COURT: I'll continue the case
until April 23rd, then, Mr. Janusz.
DEFENDANT: Thank you, your
Honor.
THE COURT: Thank you.
MR. GRUBER: Thank you, your
Honor."
Additionally, the court order is marked continued by
defendant.
July 14th, 2015 Judge Pilmer was presiding.

50

"THE COURT:
This is up for status. Is that correct?
MR. GRUBER:
That is true, your Honor. We've
engaged in services of an expert and
we would like a 45-day status date.
THE COURT: Okay. State have any
objection?
MS. FINLEY: Not at this time.
THE COURT: That would put.us
towards the end of August.
MR. GRUBER: I was thinking
August 20th.
Well, that's a little less than 45 days.
THE COURT: Thursday the 20th. Is
that correct?
MR. GRUBER: That would be fine.
THE COURT: Okay.
So Mr. Janusz, I'm going to continue
your case to Thursday, August 20th.
That will be at 8:45 a.m. for status.
DEFENDANT: Thank you, your
Honor.
THE COURT: Thank you."
Additionally, the court order was marked on
defendant's motion.
August 20th, 2015 Judge Matekaitis was

51

presiding.
On this court date Mr. Gruber never came to
court.
The following colloquy occurred:
"MS. FINLEY: That's Mr. Gruber' s
case.
THE COURT: This matter comes
before the Court for status.
MS. FINLEY: This is Mr. Gruber's
case.
THE COURT: Mr. Janusz, Mr.
Gruber is not present yet in the
courtroom. We're going to pass it and
see if he joins us. If not, we'll
get you another court date, all right?
DEFENDANT: Thank you.
THE COURT: Thank you, Mr.
Janusz.
(Whereupon other cases were heard.)
(The following proceedings were had
in open court.)
THE COURT: Has anybody seen or
heard from Mr. Gruber?
MS. FINLEY: No. He's failed to
appear on a prior court date, Judge.
If we can put it over till next Tuesday,

52

and I will call him.
THE COURT: Do you know that he
has any are you aware of any court
dates he has scheduled for next week
in this courtroom?
MS. FINLEY: No.
THE COURT: All right, Mr. Janusz.
Unfortunately your attorney is not
appearing in court today. We've
concluded the rest of the bond call
without the benefit of your attorney
being present, so I'm going to
continue the matter over till Monday
morning at 8:45 and direct the clerk
to notify Mr. Gruber of the new court
date and time with regards to the
your case, all right?
DEFENDANT: Thank you, your
Honor."
The case was then continued on defendant's
motion.
August 24th, 2015 Judge Matekaitis was
presiding.
"MR. GRUBER:· Good morning, your
Honor.
Peter Gruber on behalf of Mr. Janusz.

53

THE COURT:
Good morning, Mr.· Janusz.
DEFENDANT:
Good morning, your Honor.
MR. GRUBER: Your Honor, we
currently have a trial set in the
family case on September 30th, and
based upon how that goes will
determine what experts if any we can
hire for this particular case. I'd be
looking for a status in this case
around October 15th.
THE COURT: Any objection, State?
MS. FINLEY: No objection at this
time on defendant's motion.
THE COURT: Defendant's motion
continued for status October 15.
Mr. Janusz, your next court date as it
relates to the felony matters would be
October 15th at 8:45 in the morning.
All right?
DEFENDANT:
Thank you, your Honor.
THE COURT:
Thank you."
The court order indicates the case was continued
on the defendant's motion.

54

December 3rd, 2015 Judge Filmer was presiding.
"MS. FINLEY: Judge, we're here for
status this morning. I believe Mr.
Gruber was determining his next
course of action based on things that
were happening in the family case.
MR. GRUBER: True. We received a
judgment on the divorce action
earlier this week from Judge
Matekaitis, and as a result of that, I'll
be able to do certain things with the
defense that were held in.abeyance
due to material funds not being
released. With that in mind, I'd ask
for a status date of January 15th.
MS. FINLEY: That's a Friday?
MR. GRUBER:· Is that a Friday?
MS. FINLEY: Yes.
MR. GRUBER: Oh, I'm sorry. I'm
looking at the wrong year. Maybe the
14th, then? I know that's a Jury trial
week.
MS. FINLEY: That’s s fine.
THE COURT: That should be fine.
So January 14th at 8:45, Mr. Janusz,
and Mr. Gruber will be in contact
with you between now and then,
okay?

55

DEFENDANT: Thank you,
Honor.
THE COURT: Thank you.
MR. GRUBER: Thank you."

your

The court order indicates it was continued on
defendant's motion.
January 14th, 2016 I was the judge handling the
case on that court date.
"THE COURT: How are we
proceeding today,Mr. Gruber?
MR. GRUBER: Your Honor, I'm
going to be asking for a status about
45 days out. A family case matter had
concluded in December, and we're in
the process of obtaining portions of
the marital estate so that we can hire
experts.
THE COURT: That would put us to
about March 3rd, Ms. Caplan.
MS. CAPLAN: That's fine, Judge.
THE COURT: Okay. On defendant's
motion the case is going to be
continued until March 3rd. Sir, your
next court date is March 3rd. We'll
see you in front of Judge Stuckert on
that court date, okay?

56

DEFENDANT: Thank you, your
Honor."
Again the court order indicates this was
continued on defendant's motion.
The final date for paragraph 7, April 21st,
2016. Again I was presiding and the defendant
was arraigned. After the arraignment, the
following colloquy occurred:
"THE COURT:
What's the suggested future court
date?
MR. GRUBER: Either June 19th or
26th for status.
MS. CAPLAN: May or June?
MR. GRUBER: I'm sorry, May.
THE COURT: She's not here either
day.
MR. GRUBER: June 2nd?
MS. CAPLAN: I know she's here on
June 2nd.
THE COURT: She is.
MR. GRUBER: Okay.
THE COURT: Sir, your next court
date is going to be Thursday, June
2nd at 8:45. You'll be with Judge
Stuckert on that court date.
DEFENDANT: Thank you.

57

THE COURT: You'·re welcome."
Again the court order is marked on defendant's
motion.
Looking at the aforementioned court dates,
never is there a suggestion that because Judge
Stuckert, the Judge assigned to the case, was not
present and was unavailable was the
continuance because of this. One of the court
dates the defendant would attribute to the State
Mr. Gruber didn't even appear, but another way,
the defendant has advanced no argument nor
does the record reflect that Judge Stuckert's
unavailability was the cause for any of the
continuances. Had the defendant wanted an
issue addressed immediately, all he had to do
was ask. He chose not to.
Therefore, the Court will make a finding that
all the above-referenced continuances toll the
speedy trial demand period, and are not solely
attributable to the State.
As to paragraph 8 of his motion and the next
set of dates, August 1st, 2014 was the first time
the case was in court. After the defendant was
advised of his rights and penalties, the Public
Defender was appointed. After bond was set,

58

Mr. Carlson of the Public Defender's Office
stated:
"MR. CARLSON: Judge, could we
have a court date of August 20th? If
we need to bring it in sooner, we will
do so."
The Court then said:
"THE COURT: August 20th is the
next court date as asked by the
defendant's attorney."
The order reflects this date was by agreement.
August 20th, 2014 Mr. McCulloch of the Public
Defender's Office appeared.
"MR. McCULLOCH: I met with Mr.
Janusz yesterday. I have received
150 pages approximately of material
from the State this morning. We'd
ask for a further status date. I'm told
that there is a good deal more
information coming, so whatever is
convenient with the State.
MS. FINLEY: Go out to the end of
September?
MR. McCULLOCH: Sure. How about
the 22nd or 29th?"

59

The Court then set the date of September 29th,
2014 as the defendant's attorney asked for.
order is marked by agreement.
The next court date was October 8th, 2014.
During this court date there was a discussion
regarding the defendant being allowed to see his
son. Eventually the Court asks:
"THE COURT: Mr. McCulloch, so
what date would you like, then?
MR. McCULLOCH: How about
November 4th?"
Pursuant to defendant's attorney's request,
defendant is given November 4th, 2014. The
court order is marked by agreement.
Although defendant's motion refers to October
15th, 2017 which he then was able to clear up,
the case was actually on the call October 15th of
2015.
On October 15th, 2015 Mr. Gruber states:
"MR. GRUBER: Your Honor, we have
finished the divorce case and we're
waiting for a ruling on that. That will

60

have some impact on our ability to
prepare our case, so I would look
for a status on November 12th."
Pursuant to Mr. Gruber's request, the case is
then continued to November 12th The order is
marked on defendant's motion.
The next court date is March 3rd, 2016. On
March 3rd, 2016 Mr. Gruber states:
"MR. GRUBER: Your Honor, the
divorce case is concluded and we are
in the process of withdrawing money
from several retirement accounts. I
have been able to retain a forensic
computer analyst, and I have
tendered him discovery. I'm waiting
for feedback from him regarding
additional discovery. I would ask for
the April 21st date if I may."
Whereupon the case was continued to the date
Mr. Gruber asked for.
June 2nd, 2016:
"MR. GRUBER:
Your Honor, we were able to retain

61

an expert in this case, and I have filed
a request for additional discovery
based on his initial review of the
discovery we have already received.
THE COURT: All right.
MR. GRUBER: I don't know how long
it will take the State to do that.
MS. CAPLAN: Frankly, Judge, the
stuff he's written down, I'm not a
computer expert and don't know
what it is, so I'm going to have to
speak with my computer expert and
get that together. It might take me a
month or more.
THE COURT: All right.
MR. GRUBER: Could I suggest May
the 28th?
THE COURT: This is how it is. I'll start
over. The transcript reads:
"MR. GRUBER: Could I suggest the
28th of July, then? That's about 45
days."
Pursuant to Mr. Gruber's request, the case was
continued to July 28th, 2016 and the order is
marked on defendant's motion.

62

July 28th, 2016 a discussion was held regarding
the age of the case and setting it for trial.
"MR. GRUBER: Your Honor, we've
hired the expert, and a large part of
the delay was due to a divorce that
arose out of this case. We've settled
that and we are now obtaining money
through the marital estate which had
been frozen, so we have hired that
expert. This is the first request for
additional information that the
expert has asked for, so I will need
time for him to review it, and
depending on what he finds, if he
needs more, I may have to file a
request for additional information.
THE COURT: How much time do you
think you'll need, Mr. Gruber?
MR. GRUBER: September 15th."
Pursuant to Mr. Gruber's request, the case was
continued to September 15, 2016, and the order
is marked on defendant's motion.
March 16th, 2017 Ms. Caplan explained that
they were in the process of receiving -- reviewing
defendant's motion to quash the search warrant
and suppress evidence which had previously

63

been filed for which the defendant was given
months to obtain.
Ms. Caplan did ask for a continuance until April
17th, 2017 to hire an expert to review the
defendant's expert's report. The defendant was
given many months to hire an expert; so it's not
unreasonable for the State to obtain an expert to
prepare for defendant's motion to quash search
warrant.
Ms. Caplan asked for April 17th, 2017, but Mr.
Gruber asked for April 20th, 2017, and therefore
the case was continued to April 20th, 2017. The
order is marked continued on defendant's
motion.
April 20th, 2017 Ms. Caplan indicated that they
had found an expert, and she just needed more
time to prepare his -- have his report prepared.
The case was then continued to May 11th, 2017.
Although it was Ms,- Caplan who asked for the
continuance, it was still as a result of the actions
of the defendant. The order is marked by
agreement.
May 11, 2017 the case was continued then to
June 1st, 2017 for status so that a hearing date
could be set on defendant's motion. The order is
marked by agreement.

64

On June 1st, 2017 a discussion was held
regarding what date to set defendant's motion to
quash search warrant and suppress evidence.
"MR. GRUBER: I would like for
something in
the last week of July, meaning the
24th through
the 28th."
Pursuant to Mr. Gruber's request, I continued
the case to July 24th, 2017 for hearing on
defendant's motion to quash search warrant.
The order is marked on defendant's motion.
Again, the Court fails to see how these
continuances are solely attributable to the State.
The dates were either continued specifically at
the defendant's request or they were continued
as a result of the defendant's filing the motion to
quash search warrant and notifying the State
that they had an expert, therefore necessitating
the State to respond to the defendant's motion.
Therefore, the Court will make a finding that
all of the above-referenced continuances tolled
the speedy trial demand time period and are not
solely attributable to the State.
Defendant's motion to dismiss is denied.

65

I believe that leaves us with one more motion,
and that is the motion to allow the·complaining
witness to testify via closed-circuit TV, and I
believe that the thought was that we were going
to hear that motion shortly prior to the trial, if I
recall correctly.
MS. CAPLAN: That's correct.
THE COURT: Okay. Are we still doing that? Is
that still how you want to proceed, Mr. Gruber?
MR. GRUBER: That was my understanding,
because it's my understanding that they needed
to call the witness of either the victim or her
father in support of that motion.
THE COURT: I believe that is correct. So we still
have a trial date. We're still on
board for the trial date?
MR. GRUBER: We are.
THE COURT: You are my No. 1 priority,
Mr. Gruber.
MR. GRUBER: Thank you.
THE COURT: Okay. I will see you all then on
the final jury trial status date.
The final jury trial status date, Ms. Caplan,
is
MS. CAPLAN: It's still February 8th, Judge.
THE COURT: February 8th.
So next Thursday at 1:30, Mr. Janusz, I'll see
you back here then. Thank you.
MR. GRUBER: Thank you, your Honor.

